CERTIFICATE OF SERVICE
On this date, November 19, 2020, a copy of this application was served by
email and U.S. Mail Priority Mail to the counsel listed below in accordance with
Supreme Court Rule 22.2 and 29.3:

Daniel M. Vanella
OFFICE OF THE ATTORNEY GENERAL OF NEW JERSEY
Division of Law
R.J. Hughes Justice Complex
25 Market Street
P.O. Box 116
Trenton, NJ 08625
609-376-2776
Email: Daniel.vannella@law.njoag.gov
Lead Attorney for Respondents
Bryan E. Lucas
State of New Jersey
OFFICE OF THE ATTORNEY GENERAL
124 Halsey Street
P.O. Box 45029
Newark, NJ 07101
Email: bryan.lucas@law.njoag.gov
/s/ Stephen Crampton
STEPHEN M. CRAMPTON
Counsel of Record
THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St., Suite 1250
Chicago, IL, 60606
(312) 782-1680
Counsel for Applicants

CERTIFICATE OF SERVICE
On this date, November 19, 2020, a copy of this application was served by
email and FedEx 2Day to the counsel listed below in accordance with Supreme
Court Rule 22.2 and 29.3:

Daniel M. Vanella
OFFICE OF THE ATTORNEY GENERAL OF NEW JERSEY
Division of Law
R.J. Hughes Justice Complex
25 Market Street
P.O. Box 116
Trenton, NJ 08625
609-376-2776
Email: Daniel.vannella@law.njoag.gov
Lead Attorney for Respondents
Bryan E. Lucas
State of New Jersey
OFFICE OF THE ATTORNEY GENERAL
124 Halsey Street
P.O. Box 45029
Newark, NJ 07101
Email: bryan.lucas@law.njoag.gov
/s/ Stephen Crampton
STEPHEN M. CRAMPTON
Counsel of Record
THOMAS BREJCHA
PETER BREEN
THOMAS MORE SOCIETY
309 W. Washington St., Suite 1250
Chicago, IL, 60606
(312) 782-1680
Counsel for Applicants

